                                                                Issue Date
                                                                   December 17, 2010
                                                                Audit Report Number
                                                                         2011-FW-1003




TO:        Vicki B. Bott, Deputy Assistant Secretary for Single Family Housing, HU

           //signed//
FROM:      Gerald R. Kirkland
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: WR Starkey Mortgage, LLP, Plano, TX, Did Not Follow HUD Underwriting
         Requirements for 13 of 14 Loans Reviewed


                                  HIGHLIGHTS

 What We Audited and Why

            We performed an audit of WR Starkey Mortgage, LLP (WR Starkey), located in
            Plano, TX, a Federal Housing Administration (FHA) direct endorsement lender.
            We selected WR Starkey for audit because of its high default rate of nearly 4.5
            percent as compared to the average default rate for all FHA loans in Fort Worth,
            TX, of 4.1 percent. Our objective was to determine whether WR Starkey
            complied with U. S. Department of Housing and Urban Development (HUD) and
            FHA loan origination requirements for loans endorsed between April 1, 2008, and
            April 30, 2010.

 What We Found


            WR Starkey did not follow HUD/FHA underwriting requirements in 13 of 14 loan
            originations reviewed. This noncompliance occurred because WR Starkey’s
            underwriters failed to exercise due diligence in underwriting the loans and its
            internal control system did not detect or prevent the underwriters from originating
            the faulty loans. As a result, WR Starkey improperly originated four loans that
            resulted in losses to FHA’s Mutual Mortgage Insurance Fund (insurance fund) of
            $360,032 and nine loans that increased the risk to the insurance fund by $905,803.
    What We Recommend


                 We recommend that the Deputy Assistant Secretary for Single Family require WR
                 Starkey to (1) reimburse the FHA insurance fund $360,032 in actual losses on
                 four loans and (2) indemnify nine loans that placed the FHA insurance fund at
                 unnecessary risk with unpaid balances of $905,803, thereby putting an estimated
                 $543,482 1 in funds put to better use.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response


                 We provided our discussion draft report to WR Starkey on November 12, 2010,
                 and held the exit conference on November 30, 2010. We requested a written
                 response by December 3, 2010. WR Starkey requested an extension and provided
                 its response on December 7, 2010.

                 The complete text of the auditee’s response, along with our evaluation of that
                 response, can be found in appendix B of this report.




1
     According to the Actuarial Review of the FHA Mutual Mortgage Fund for Fiscal Year 2009, FHA’s average
     loan experience is about 60 percent of the unpaid principal balance upon sale of a mortgaged property.
                                                       2
                             TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
        Finding:   WR Starkey Did Not Follow HUD/FHA Requirements for 13 of 14   5
                   Loans Reviewed


Scope and Methodology                                                            11

Internal Controls                                                                12

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use           13
   B.   Auditee Comments and OIG’s Evaluation                                    14
   C.   Loan Underwriting Deficiencies                                           23
   D.   Case Narratives
                                                                                 25




                                             3
                          BACKGROUND AND OBJECTIVE

WR Starkey Mortgage, LLP (WR Starkey), began operations on January 27, 2000, and is
engaged in the business of processing, underwriting, originating, and selling mortgage loans and
the related servicing rights. According to the U.S. Department of Housing and Urban
Development’s (HUD) Neighborhood Watch, 2 WR Starkey received approval as a direct
endorsement lender on February 17, 2000. WR Starkey originates loans from offices located
throughout Texas as well as offices located in Colorado, Oklahoma, Tennessee, South Carolina,
North Carolina, Georgia, Kentucky, and Alabama.

WR Starkey was initially formed as a limited liability corporation in the State of Delaware.
Effective January 1, 2002, WR Starkey filed for and received approval to convert the limited
liability corporation to a limited liability partnership.

The direct endorsement program simplified the process for obtaining Federal Housing
Administration (FHA) mortgage insurance by allowing lenders to underwrite and close the
mortgage loan without prior HUD review or approval. WR Starkey was responsible for
complying with all applicable HUD/FHA regulations and was required to evaluate the
borrower’s ability and willingness to repay the mortgage debt. WR Starkey was protected
against default by FHA’s Mutual Mortgage Insurance Fund (insurance fund), which is sustained
by borrower premiums. FHA’s mortgage insurance programs help low- and moderate-income
families become home owners by lowering some of the costs of their mortgage loans. FHA
mortgage insurance also encourages lenders to approve mortgages for otherwise creditworthy
borrowers that might not be able to meet conventional underwriting requirements by protecting
the lender against default.

During the audit scope, WR Starkey maintained a relationship with Genesis Housing
Development Corporation (Genesis). Genesis purported to be a nonprofit entity that provided
downpayment assistance to WR Starkey borrowers. Genesis provided the funding for 13 of the
14 loans reviewed, thus allowing the borrowers to purchase the property without using personal
funds.

From April 1, 2008, to March 31, 2010, WR Starkey underwrote 2,530 FHA loans in the Fort
Worth area with a total origination value of nearly $322.9 million. During the same period, 113
of the loans (nearly 4.5 percent) with a total origination value of more than $14.5 million
defaulted. 3

Our objective was to determine whether WR Starkey followed HUD and FHA loan origination
requirements for loans endorsed between April 1, 2008, and April 30, 2010.

2
    Neighborhood Watch refers to a Web-based software application that displays loan performance data for
    lenders and appraisers using FHA-insured single-family loan information. The system is designed to highlight
    exceptions so that potential problems are readily identifiable.
3
    HUD defines a default as the inability to make timely monthly mortgage payments or otherwise comply with
    mortgage terms. A loan is considered in default when no payment has been made 30 days after the due date.
    Once in default the lender can exercise legal rights defined in the contract to begin foreclosure proceedings.

                                                        4
                                       RESULTS OF AUDIT

Finding: WR Starkey Did Not Follow HUD/FHA Requirements for 13
         of 14 Loans Reviewed
WR Starkey did not follow HUD/FHA requirements for 13 of 14 loans reviewed.4 The 13 loans
each contained multiple underwriting deficiencies. This noncompliance occurred because WR
Starkey’s underwriters failed to exercise due diligence in underwriting the loans and its internal
control system did not detect or prevent underwriters from originating the faulty loans. As a result,
WR Starkey caused the FHA insurance fund losses totaling $360,032 and increased the risk to the
insurance fund by $905,803.


    WR Starkey Did Not Follow
    HUD/FHA Requirements


                  WR Starkey did not follow HUD/FHA requirements for 13 of 14 loans reviewed.
                  The 13 loans contained multiple underwriting deficiencies. Specifically, WR
                  Starkey did not

                  •   Verify that Genesis was a valid nonprofit organization,
                  •   Document the transfer of gift funds for 11 of the loans,
                  •   Document compensating factors for three loans,
                  •   Obtain required payroll documentation for two loans,
                  •   Obtain required explanation for derogatory credit items for two loans,
                  •   Obtain an itemized sales contract on one manufactured home loan, and
                  •   Include earnest money paid on a settlement statement for one loan. 5

                  Also, WR Starkey

                  •   Obtained borrower information from the seller for three loans,
                  •   Marked on the loan application that two borrowers did not file
                      for bankruptcy when the borrowers’ credit report showed a
                      bankruptcy,
                  •   Used discount points to calculate minimum investment, and
                  •   Overinsured one loan.

                  We included case narratives describing the underwriting deficiencies for each
                  loan in appendix D.


4
     Appendix C contains a summary of the deficiencies and questioned costs.
5
     This is a violation of the Real Estate Settlement Procedures Act (RESPA), which requires that all funds paid by
     a borrower toward the sales price of the property be shown on the settlement statement.
                                                          5
    WR Starkey Did Not Document
    Gift Funds

                WR Starkey did not verify that Genesis was a qualified, valid nonprofit. FHA
                requires 6 that the lender ensure and document that the entity is a charitable
                organization using an Internal Revenue Service website. Genesis was not found
                on the Internal Revenue Service website. WR Starkey stopped using Genesis in
                August 2008. Thirteen of the fourteen loans reviewed contained this underwriting
                deficiency.

                Further, WR Starkey did not document the gift wire transfer as required on 11 of
                14 loans reviewed. FHA regulations 7 required that WR Starkey document the
                transfer of the funds from the donor to the borrower.


    WR Starkey Did Not Provide
    Permissible Compensating
    Factors

                WR Starkey did not provide permissible compensating factors for 3 of the 14
                loans reviewed. When loans exceed the standard debt-to-income ratio, FHA
                regulations 8 required WR Starkey to obtain and document compensating factors
                to justify originating the loan. WR Starkey thought that it followed sufficient
                processes, but it did not.


    Seller Obtained Documents for
    WR Starkey

                For three loans, the seller obtained documentation from the borrower and sent the
                information to WR Starkey. All of the sellers were manufactured home sales
                offices. In one instance, the manufactured home sales representative requested
                rental verification from the potential borrower’s mother. Other manufactured
                home sales representatives obtained payroll and other documentation and then
                forwarded it to WR Starkey. FHA regulations 9 prohibit lenders from accepting
                documentation collected and sent by the seller.




6
     Mortgagee Letter 2006-13
7
     HUD Handbook 4155.1, paragraph 5.B.5.b
8
     HUD Handbook 4155.1, paragraph 4.F.3.b
9
     HUD Handbook 4155.1, paragraph 1.2.d
                                                6
     WR Starkey Did Not Always
     Obtain Required Income
     Documentation

                   For two loans, WR Starkey did not obtain the required payroll documentation.
                   The automated underwriting system required WR Starkey to obtain
                   documentation supporting 1 month of income. In both instances, WR Starkey
                   only obtained 1 payroll cycle or 2 weeks’ worth of income information. In one
                   instance, the borrowers began new employment 60 days before closing with one
                   of the co-borrowers changing jobs eight times, and the other co-borrower
                   changing jobs seven times from November 2005 to May 2007. FHA
                   requirements state that all documentation on which the lender bases its credit
                   decision must be in the loan file. 10 WR Starkey agreed that it failed to follow up
                   on the payroll documentation.

     WR Starkey Did Not Obtain
     Explanations for Derogatory
     Credit

                   For two other loans, WR Starkey did not obtain explanations for derogatory credit
                   items. In one instance, the borrower did not explain a judgment on his credit
                   report. In the second instance, the borrower’s credit report contained five
                   unexplained derogatory items. FHA requirements state that the borrower must
                   provide sufficient reasonable written explanation regarding the reasons for
                   derogatory credit. 11


     A Sales Contract Was Not
     Itemized

                   The sales contract for one loan did not contain itemization of the sales price.
                   FHA required 12 the sales contract to support the sales price on the settlement
                   statement. Further, if the manufactured home dealer was the general contractor,
                   as in this instance, the cost for the foundation, installation, and any additional
                   charges must be itemized on the sales contract. WR Starkey’s underwriter should
                   have ensured that the sales contract included the required itemization.




10
       Mortgagee Letter 2004-47
11
       HUD Handbook 4155.1 paragraph 4.C.1.c
12
       HUD Handbook 4155.1, paragraph 2.B.8.i
                                                     7
     WR Starkey Inappropriately
     Included Discount Points as
     Downpayment Funds

                    In one instance, WR Starkey inappropriately included discount points in a
                    borrower’s downpayment. The original mortgage credit analysis worksheet, 13
                    showed the required statutory investment as $3,118, the downpayment as $2,064,
                    and the discount points as $2,047. According to FHA regulations, 14 the
                    downpayment must meet or exceed the statutory investment. When WR Starkey
                    recalculated the mortgage credit analysis worksheet it deleted the discount points
                    from the mortgage credit analysis worksheet and added that amount to the
                    downpayment line, increasing the downpayment by $2,047 to $4,111. FHA
                    regulations 15 prohibit discount points from being used to meet the borrowers’
                    minimum investment.

                                   Original mortgage credit analysis worksheet




                                   Final mortgage credit analysis worksheet




13
       Lenders use the mortgage credit analysis worksheet to calculate the mortgage amount.
14
       HUD Handbook 4155.1, paragraph 2.A.2.c
15
       HUD Handbook 4155.1, paragraph 2.A.2.d
                                                          8
     WR Starkey Overinsured One
     Loan by $6,500

                   The manufactured home dealer provided one borrower a downpayment assistance
                   gift of $8,100. This downpayment assistance gift totaled 6 percent of the sales
                   price. However, according to the borrower, 16 the manufactured home dealer also
                   gave the borrower $6,500 cash after closing. The $6,500 exceeded the allowed 6
                   percent contribution to the sales price and should have been considered a sales
                   inducement. FHA regulations 17 required WR Starkey to reduce the loan dollar for
                   dollar for this sales inducement.

     The Settlement Statement Did
     Not Show an Earnest Money
     Deposit

                   The borrower gave the seller, a manufactured home dealer, a $500 money order.
                   WR Starkey’s loan file contained a copy of the money order. However, the
                   settlement statement did not show earnest money or other downpayments made
                   by the borrower. The Real Estate Settlement Procedures Act (RESPA) 18 required
                   the settlement statement reflects any amounts paid against the sales price. WR
                   Starkey’s underwriter stated that she did not review the settlement statement to
                   verify that earnest money was reflected on the settlement statement.

     WR Starkey’s Quality
     Assurance Plan Lacked a
     Requirement


                   WR Starkey’s quality assurance plan lacked policies to ensure that employees were
                   trained and that WR Starkey provided access to current guidelines. FHA regulations
                   state that the lender must properly train staff and provide access to current FHA
                   guidelines.19 When brought to its attention, WR Starkey personnel prepared a
                   quality control department bulletin correcting its quality control plan. No further
                   recommendation will be made.




16
      We did not interview all of the borrowers to determine the extent of this condition.
17
      HUD Handbook 4155.2, paragraph 4.8.c
18
      24 CFR (Code of Federal Regulations) Part 3500, appendix A
19
      HUD Handbook 4060.1, REV-2, paragraph 7 3.C
                                                            9
Conclusion

             WR Starkey did not follow HUD/FHA requirements for 13 of 14 loans reviewed.
             The 14 loans had original values totaling more than $1.5 million. All thirteen
             loans cited had multiple underwriting deficiencies. This noncompliance occurred
             because WR Starkey’s underwriters failed to exercise due diligence in
             underwriting the loans and its internal control system did not detect or prevent the
             underwriters from originating the faulty loans. WR Starkey caused FHA
             insurance fund losses totaling $360,032 on four of the loans. Another nine loans,
             totaling $905,803 put the FHA insurance fund at increased risk of loss.

Recommendations

             We recommend that the Deputy Assistant Secretary of Single Family Housing
             require WR Starkey to

             1A. Reimburse the FHA insurance fund $360,032 for losses incurred on the
                 following loan numbers: 492-8085148, 492-8084142, 492-8051404, and
                 492-8041804.

             1B. Indemnify HUD for nine insured loans with unpaid principal balances of
                 $905,803 thereby putting an estimated $543,482 to better use based on the
                 FHA insurance fund average loss rate of 60 percent of the unpaid principal
                 balances.




                                              10
                              SCOPE AND METHODOLOGY

To accomplish our objective, we

     •   Reviewed applicable HUD regulations, requirements, and mortgagee letters;
     •   Reviewed reports and information on HUD’s Neighborhood Watch and Single Family
         Data Warehouse; 20
     •   Reviewed WR Starkey’s files, quality control plan, quality control reports, and
         independent audit reports;
     •   Conducted interviews with applicable WR Starkey staff; and
     •   Conducted onsite visits to nine properties and conducted interviews with one borrower,
         one set of co-borrowers, and one occupant who purchased the foreclosed-upon property
         and lived at the property with the prior borrower.

Using HUD’s Neighborhood Watch system, we determined which FHA lenders originated
defaulted loans in the Fort Worth, TX, area. We obtained a download of defaulted loans with six or
fewer payments originated by the lender and endorsed from April 1, 2008, to April 30, 2010. We
determined that WR Starkey originated 2,530 loans, 113 (nearly 4.5 percent) of which later
defaulted. We selected a random nonstatistical sample of 14 loans with original loan values totaling
more than $1.5 million and reviewed the loan documents. We used a nonstatistical random sample
because we were determining what types of errors might exist and did not intend to project the test
results on the population of loans. We did not evaluate the reliability of HUD’s Neighborhood
Watch or Single Family Data Warehouse systems because we used the data for background
purposes only.

We performed our fieldwork between June 9, 2010, and October 1, 2010, at WR Starkey’s office
and our office in Fort Worth, TX.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




20
     Single Family Data Warehouse is a large and extensive collection of database tables organized and dedicated to
     support the analysis, verification, and publication of single-family housing data. It consists of database tables
     structured to provide HUD users easy and efficient access to single-family housing case-level data on properties
     and associated loans, insurance, claims, defaults, and demographics.
                                                         11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •   Policies and procedures intended to ensure that FHA-insured loans are
                   properly originated, underwritten, and closed.
               •   Safeguarding FHA-insured mortgages from high-risk exposure.
               •    Policies and procedures intended to ensure that the quality control program is
                   an effective tool in reducing underwriting errors and noncompliance.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

               •   WR Starkey did not have effective controls in place to ensure that its
                   underwriters complied with HUD regulations in originating, underwriting, and
                   closing FHA loans (finding).

                                                12
                                             APPENDIXES

Appendix A

                    SCHEDULE OF QUESTIONED COSTS
                   AND FUNDS TO BE PUT TO BETTER USE


             Recommendation                           Ineligible 1/          Funds to be put
                    number                                                   to better use 2/
                              1A                         $360,032
                              1B                                                     $543,482




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the auditor
     believes are not allowable by law; contract; or Federal, State, or local policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be used more efficiently if
     an Office of Inspector General (OIG) recommendation is implemented. These amounts include reductions in
     outlays, deobligation of funds, withdrawal of interest, costs not incurred by implementing recommended
     improvements, avoidance of unnecessary expenditures noted in preaward reviews, and any other savings that
     are specifically identified. Implementation of our recommendation to require WR Starkey to indemnify HUD
     for the nine loans that were not originated in accordance with HUD/FHA requirements will reduce FHA’s risk
     of loss to the insurance fund. The amount reflects that, upon the sale of the mortgaged property, FHA’s average
     loss experience is about 60 percent of the unpaid principal balance (see footnote 1).


                                                        13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                         14
15
Comment 2




            16
Comment 2




            17
Comment 2




Comment 2
Comment 3




            18
19
Comment 4




            20
                                  OIG Evaluation of Auditee Comments

Comment 1         We appreciate the update and actions taken by WR Starkey to address the
                  identified problems.

Comment 2         WR Starkey provided the gift wire transfer at the exit conference. However, the
                  FHA regulations require that the gift wire transfer be maintained in the loan file.
                  WR Starkey agreed in its response that the gift wire transfers should have been in
                  the loan files. Despite the wire transfer evidencing the gift funds, the gift funds
                  were not from an acceptable source. Further, without the gift funds the borrower
                  would not have had the minimum cash investment. Therefore the borrower would
                  not have qualified for the loan.

                  Genesis, the entity that provided the downpayment assistance, was not a valid
                  501(c)(3) as defined by the Internal Revenue Service. 21 Thus, Genesis was not an
                  acceptable source of gift funds. HUD required WR Starkey to determine that the
                  gifts were from sources acceptable to FHA. 22 FHA regulations 23 state that the
                  donor of any such gift must be the borrower’s relative, the borrower’s employer
                  or labor union, a charitable organization, a governmental agency or public entity
                  that has a program to provide homeownership assistance to low- and moderate-
                  income families or first-time homebuyers, or a close friend with a clearly defined
                  and documented interest in the borrower. FHA defines charitable organizations as
                  those nonprofits exempt from income taxation under section 501(a) of the Internal
                  Revenue Service Code of 1986 pursuant to section 501(c)(3) of the Internal
                  Revenue Service Code.

                  In its response, WR Starkey provided no documentation to support its contention
                  that Genesis was a valid 501(c)(3). Since Genesis was using another entity’s tax
                  identification number, WR Starkey could not support its contention. WR Starkey
                  should not have accepted downpayment assistance from an entity that was not an
                  acceptable source. Without the downpayment assistance, the borrowers did not
                  provide the minimum required investment.

                  Case number           Gift amount            Minimum             Amount paid          Amount
                                                               required            by borrower         received at
                                                                amount                                  closing 24
                  492-8076934                   $6,100              $4,575                      $0               $0
                  492-8203384                   $4,800              $4,800                      $0               $0
                  492-8080548                   $6,245              $4,842                      $0               $0
                  492-8051404                   $9,705              $8,090                  $1,000          $1,000

21
     When entered into the website, the tax identification number listed another organization than Genesis.
22
     Mortgagee Letter 2006-13
23
     HUD Handbook 4155.1, paragraph 5.B.4
24
     This is addressed in Comment 3
                                                         21
            Since the downpayment assistance was not appropriate, the borrowers did not
            meet the required minimum investment; thus, we maintain our position that the
            questioned loans warrant indemnification or reimbursement as appropriate.

Comment 3   We agree that WR Starkey considered the mortgage in its calculation of the
            borrower’s debts and that WR Starkey responded that the borrower reestablished
            credit with several trade lines. While the underwriter may have been aware of the
            bankruptcy, it was not disclosed properly. Further, regarding the reestablishment
            of the credit, the loan file showed that WR Starkey had to request that the
            borrower make his car payment just prior to closing. The borrower carried debt
            of $143,772 with monthly payments, including the mortgage, of $3,241.
            Reestablishment of credit includes making payments on time. In this instance, the
            borrower defaulted without making any loan payments.

            The borrower received a $9,705 gift from Genesis and received $1,000 at closing.
            We disagree that if the underwriter had appropriately considered all of these items
            that it would have underwritten the loan. Insisting that the borrower make a car
            payment prior to loan closing was not adequate justification. We maintain our
            position that the deficiencies warrant reimbursement to FHA for the losses on this
            loan.

Comment 4   As discussed in comments 2 and 3, we maintain our position that WR Starkey
            should indemnify the loans or reimburse the FHA insurance funds as appropriate.
            Thus, we did not revise our recommendations.




                                            22
  Appendix C
                       LOAN UNDERWRITING DEFICIENCIES

Claim number Mortgage Unpaid HUD loss        Computed
              amount principal on loan 25    benefit of
                                                                                       Underwriting deficiency
                      amount              indemnification
                                                                26

492-8076934        $111,302 $108,627                             $65,176 •   No documentation of nonprofit’s eligibility
                                                                         •   No gift wire documentation
492-8203384         $79,152     $77,485                          $46,491 •   No documentation of nonprofit’s eligibility
                                                                         •   No gift wire documentation
492-8029766         $98,455     $95,629                          $57,378 •   No documentation of nonprofit’s eligibility
                                                                         •   No derogatory credit explanation
                                                                         •   Required compensating factors not provided
                                                                         •   Loan application not completed correctly
492-8037040        $132,914 $129,431                             $77,659 •   No documentation of nonprofit’s eligibility
                                                                         •   No gift wire documentation
                                                                         •   Seller obtained documents for WR Starkey
                                                                         •   No derogatory credit explanation
                                                                         •   Sales contract not itemized
492-8158455         $93,937     $91,863                          $55,118 •   No documentation of nonprofit’s eligibility
                                                                         •   No gift wire documentation
                                                                         •   Seller obtained documents for WR Starkey
492-8085148         $79,918                  $76,230                     •   No documentation of nonprofit’s eligibility
                                                                         •   Seller obtained documents for WR Starkey
                                                                         •   Earnest money paid not included on HUD-1
                                                                             settlement statement
492-8084142        $101,735                  $83,881                     •   No documentation of nonprofit’s eligibility
                                                                         •   No gift wire documentation
                                                                         •   Sufficient payroll documents not obtained
492-8180867        $105,371 $103,447                             $62,068 •   No documentation of nonprofit’s eligibility
                                                                         •   No gift wire documentation
                                                                         •   Required compensating factors not provided
492-8182658        $121,397 $118,955                             $71,373 •   No documentation of nonprofit’s eligibility
                                                                         •   No gift wire documentation
                                                                         •   No derogatory credit explanation
                                                                         •   No documentation of required payroll




  25
       This is amount HUD lost after paying all claims on this property.
  26
       FHA’s average loss experience is about 60 percent of the unpaid principal balance (see footnote 1).

                                                           23
  Appendix C
         LOAN UNDERWRITING DEFICIENCIES (Cont.)

Claim number Mortgage Unpaid HUD loss      Computed
              amount principal on loan     benefit of                   Underwriting deficiency
                        amount          indemnification
492-8080548    $102,478 $99,899                $59,939 •       No documentation of nonprofit’s eligibility
                                                        •      No gift wire documentation
492-8041804    $102,339         $89,322                 •      No documentation of nonprofit’s eligibility
                                                        •      No gift wire documentation
                                                        •      Discount points used to meet minimum
                                                               investment
492-8023788     $82,845 $80,467                    $48,280 •   No documentation of nonprofit’s eligibility
                                                           •   No gift wire documentation
                                                           •   Required compensating factors not provided
492-8051404    $268,538           $110,599                 •   No documentation of nonprofit’s eligibility
                                                           •   No gift wire documentation
                                                           •   Loan application not completed correctly
Totals        $1,480,381 $905,803 $360,032        $543,482




                                             24
Appendix D

                                       CASE NARRATIVES

                    Case Narrative—Loan Number 492-8076934
Mortgage amount: $111,302

Date of loan closing: May 30, 2008

Status as of August 31, 2010: Claim paid 27 in the amount of $112,800 on August 4, 2010

Payments before first default reported: Three

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift funds transfer not documented by lender

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 28 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 29 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.




27
     The lender presents a claim to HUD for payment after the foreclosure sale.
28
     Mortgagee Letter 2006-13
29
     HUD Handbook 4155.1, paragraph 5.B.5.b
                                                        25
                  Case Narrative—Loan Number 492-8203384
Mortgage amount: $79,152

Date of loan closing: September 16, 2008

Status as of August 31, 2010: Evicted 30

Payments before first default reported: Two

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift funds transfer not documented by lender

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 31 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.


Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 32 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.




30
     The lender evicted the borrower.
31
     Mortgagee Letter 2006-13
32
     HUD Handbook 4155.1, paragraph 5.B.5.b
                                                26
                    Case Narrative—Loan Number 492-8029766
Mortgage amount: $98,455

Date of loan closing: April 21, 2008

Status as of August 31, 2010: Commencement of foreclosure 33

Payments before first default reported: Six

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Required compensating factors not provided
              • Loan application not completed correctly and not reviewed by WR Starkey
                  personnel
              • No explanation of derogatory credit item

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 34 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

No Explanation of Derogatory Credit Items

The borrower did not explain or provide documentation on a judgment filed in 2004.
FHA regulations state 35 that major indications of derogatory credit, such as judgments,
collections, and other recent credit problems, require sufficient written explanation from
the borrower. The explanation must make sense and be consistent with other credit
information in the file.

Required Compensating Factors Not Provided

WR Starkey did not document any acceptable FHA compensating factor(s) when the
borrower exceeded the front-and the back-end ratios. Specifically, on the Mortgage
Credit Analysis Worksheet, WR Starkey documented that the borrower was purchasing
an existing manufactured home, did not have exclusions, and used borrower’s funds plus
a grant to close. None of those items met FHA’s list of compensating factors. FHA


33
     Commencement of foreclosure for HUD's purposes is the first public action required by law such as filing a
     complaint or petition, recording a notice of default, or publication of a notice of sale.
34
     Mortgagee Letter 2006-13
35
     HUD Handbook 4155.1, paragraph 4.C.1.c
                                                        27
regulations 36 required WR Starkey to obtain supporting documentation from the borrower
and document the compensating factor(s) when borrowers exceed mortgage and debt
repayments-to-income ratios to justify mortgage origination.

Loan Application Not Completed Correctly

The borrower filed bankruptcy in 2004. However the loan application showed that the
borrower did not file bankruptcy. Also, the borrower owned a residence. WR Starkey
personnel did not follow up on the disposition of the residence. The underwriter stated
that she was responsible for incorrectly marking the loan application. The loan
application contained a certification signed by the underwriter stating that to the best of
the lender’s knowledge, the statements in the application were true and correct.




36
     HUD Handbook 4155.1, paragraph 4.F.3.b
                                                 28
                  Case Narrative—Loan Number 492-8037040
Mortgage amount: $132,914

Date of loan closing: April 29, 2008

Status as of August 31, 2010: Commencement of foreclosure

Payments before first default reported: Five

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift funds transfer not documented by lender
              • Documents for WR Starkey obtained by seller
              • No explanation of derogatory credit item
              • Sales contract not itemized

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 37 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 38 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

Documents for WR Starkey Obtained by Seller

The borrower stated that they provided all documentation to the manufactured home sales office.
This documentation included payroll and tax documents. FHA regulations 39 state that the lender
may not accept documents transmitted by the seller.

No Explanation of Derogatory Credit Items

The borrower did not explain five derogatory items on her credit report. The borrower first
stated the five derogatory items belonged to her husband then stated later in another explanation


37
     Mortgagee Letter 2006-13
38
     HUD Handbook 4155.1, paragraph 5.B.5.b
39
     HUD Handbook 4155.1, paragraph 1.2.d
                                                29
that she was not married. FHA regulations 40 state that major indications of derogatory credit,
such as judgments, collections, and other recent credit problems, require sufficient written
explanation from the borrower. The explanation must make sense and be consistent with other
credit information in the file.

Sales Contract Not Itemized

The borrower’s sales contract did not contain an itemization of the foundation and installation
costs. The entire sales contract only contained aggregate amounts. FHA regulations 41 state that
if the manufactured home dealer is the general contractor for the foundation and installation, the
cost of the unit and additional charges must be itemized on an invoice. Aggregate amounts for
total costs are not acceptable.




40
     HUD Handbook 4155.1, paragraph 4.C.1.c
41
     HUD Handbook 4155.1, paragraph 2.B.8.i
                                                30
                  Case Narrative—Loan Number 492-8158455
Mortgage amount: $93,937

Date of loan closing: August 18, 2008

Status as of August 31, 2010: Commencement of foreclosure

Payments before first default reported: Six

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift transfer of funds not documented by lender
              • Documents for WR Starkey obtained by seller

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 42 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 43 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

Documents for WR Starkey Obtained by Seller

The borrower stated that he provided documentation to the manufactured home sales office.
This documentation included payroll and tax documents. FHA regulations 44 state that the lender
may not accept documents transmitted by the seller.




42
     Mortgagee Letter 2006-13
43
     HUD Handbook 4155.1, paragraph 5.B.5.b
44
     HUD Handbook 4155.1, paragraph 1.2.d
                                                31
                   Case Narrative—Loan Number 492-8085148
Mortgage amount: $79,918

Date of loan closing: May 30, 2008

Status as of August 31, 2010: Claim

Payments before first default reported: Two

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Documents for WR Starkey obtained by seller
              • Earnest money not on settlement statement

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 45 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Documents for WR Starkey Obtained by Seller

The manufacturing home sales office personnel contacted the mother of the borrower. The
mother sent documentation directly to the manufactured home sales personnel regarding the
verification of rent. FHA regulations 46 state that the lender may not accept documents
transmitted by the seller.

Earnest Money Not on Settlement Statement

The loan file contained a money order made out to the seller in the amount of $500. The
settlement statement did not include earnest money. RESPA 47 provides instructions for
completion of the settlement statement, including any money paid against the sales price before
settlement.




45
     Mortgagee Letter 2006-13
46
     HUD Handbook 4155.1, paragraph 1.2.d
47
     24 CFR Chapter XX Part 3500, appendix A
                                               32
                  Case Narrative—Loan Number 492-8084142
Mortgage amount: $101,735

Date of loan closing: June 10, 2008

Status as of August 31, 2010: Claim paid in the amount of $107,443

Payments before first default reported: Three

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift transfer of funds not documented by lender
              • Sufficient payroll documents not obtained

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 48 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 49 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

Sufficient Income Documents Not Obtained

The automated underwriting system required WR Starkey to obtain 1 month’s worth of income
documentation from the borrowers. WR Starkey only obtained income documentation covering
a 2-week period. Therefore, it did not meet the 1 month’s income documentation requirement.
FHA requirements 50 state that all documentation on which the lender bases its credit decision
must be in the loan file. WR Starkey agreed that it failed to follow up on the income
documentation.




48
     Mortgagee Letter 2006-13
49
     HUD Handbook 4155.1, paragraph 5.B.5.b
50
     Mortgagee Letter 2004-47
                                                33
                  Case Narrative—Loan Number 492-8180867
Mortgage amount: $105,371

Date of loan closing: September 12, 2008

Status as of August 31, 2010: Claim paid totaling $106,391

Payments before first default reported: Zero

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift transfer of funds not documented by lender
              • Required compensating factors not provided
Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 51 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 52 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

Required Compensating Factors Not Provided

WR Starkey did not document an acceptable FHA compensating factor when the borrower
exceeded the front-and the back-end ratios. Specifically, on the Mortgage Credit Analysis
Worksheet, Starkey documented that there were no exclusion, the borrower made house
payments timely, and had job stability. None of those items met FHA’s list of compensating
factors. FHA regulations 53 required WR Starkey to obtain supporting documentation from the
borrower and document the compensating factor(s) when borrowers exceed mortgage and debt
repayments-to-income ratios to justify mortgage origination.




51
     Mortgagee Letter 2006-13
52
     HUD Handbook 4155.1, paragraph 5.B.5.b
53
     HUD Handbook 4155.1, paragraph 4.F.3.b
                                                34
                  Case Narrative—Loan Number 492-8182658
Mortgage amount: $121,397

Date of loan closing: September 2, 2008

Status as of August 31, 2010: Bankruptcy

Payments before first default reported: Two

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift funds transfer not documented by lender
              • No explanation of derogatory credit item
              • Sufficient payroll documents not obtained

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 54 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 55 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

No Explanation of Derogatory Credit Items

The borrower did not explain or provide documentation on derogatory items found on credit
report. FHA regulations 56 state that major indications of derogatory credit, such as judgments,
collections, and other recent credit problems, require sufficient written explanation from the
borrower. The explanation must make sense and be consistent with other credit information in
the file.




54
     Mortgagee Letter 2006-13
55
     HUD Handbook 4155.1, paragraph 5.B.5.b
56
     HUD Handbook 4155.1, paragraph 4.C.1.c
                                                35
Sufficient Income Documents Not Obtained

The automated underwriting system required WR Starkey to obtain 1 month’s worth of income
documentation from the borrowers. WR Starkey only obtained income documentation covering
a 2-week period. Therefore, it did not meet the 1 month’s income documentation requirement.
FHA requirements 57 state that all documentation on which the lender bases its credit decision
must be in the loan file.




57
     Mortgagee Letter 2004-47
                                              36
                    Case Narrative—Loan Number 492-8080548
Mortgage amount: $102,478

Date of loan closing: May 30, 2008

Status as of August 31, 2010: Special forbearance 58

Payments before first default reported: Five

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift transfer of funds not documented by lender

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 59 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 60 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.




58
     Special forbearance is a written repayment agreement between a borrower and a lender, which contains a plan
     to reinstate the mortgage when a minimum of three mortgage payments are due and unpaid.
59
     Mortgagee Letter 2006-13
60
     HUD Handbook 4155.1, paragraph 5.B.5.b
                                                        37
                  Case Narrative—Loan Number 492-8041804
Mortgage amount: $102,339

Date of loan closing: April 30, 2008

Status as of August 31, 2010: Claim paid totaling $109,970

Payments before first default reported: Two

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift transfer of funds not documented by lender
              • Discount points used to meet minimum downpayment requirement

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 61 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 62 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

Discount Points Used to Meet Minimum Downpayment Requirement

WR Starkey originally prepared the mortgage credit analysis worksheet showing the statutory
investment required as $3,118, the downpayment as $2,064, and $2,047 63 in discount points.
FHA regulations 64 state that the downpayment must meet or exceed the statutory investment.
When WR Starkey recalculated the Mortgage Credit Analysis Worksheet, it deleted the discount
points from the Mortgage Credit Analysis Worksheet and added that amount to the
downpayment line, increasing the downpayment by $2,047 to $4,111. FHA regulation state that
discount points may not be used to meet minimum investment. 65


61
     Mortgagee Letter 2006-13
62
     HUD Handbook 4155.1, paragraph 5.B.5.b
63
     Numbers rounded to nearest dollar
64
     HUD Handbook 4155.1, paragraph 2.A.2.c
65
     HUD Handbook 4155.1, paragraph 2.A.2.d
                                                38
                  Case Narrative—Loan Number 492-8023788
Mortgage amount: $82,845

Date of loan closing: April 16, 2008

Status as of August 31, 2010: Bankruptcy plan confirmed

Payments before first default reported: Four

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift transfer of funds not documented by lender
              • Required compensating factors not provided

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 66 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 67 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

Required Compensating Factors Not Provided

WR Starkey did not document an acceptable FHA compensating factor when the borrower
exceeded the front-and the back-end ratios. Specifically, on the Mortgage Credit Analysis
Worksheet, WR Starkey only documented that there were no exclusions. FHA’s list of
compensating factors did not include exclusions. FHA regulations 68 required WR Starkey to
obtain supporting documentation from the borrower and document the compensating factor(s)
when borrowers exceed mortgage and debt repayments-to-income ratios to justify mortgage
origination.




66
     Mortgagee Letter 2006-13
67
     HUD Handbook 4155.1, paragraph 5.B.5.b
68
     HUD Handbook 4155.1, paragraph 4.F.3.b
                                                39
                  Case Narrative—Loan Number 492-8051404
Mortgage amount: $268,538

Date of loan closing: July 23, 2008

Status as of August 31, 2010: Claim paid in the amount of $285,435

Payments before first default reported: Zero

Underwriting deficiencies:
              • Validity of nonprofit not documented by lender
              • Gift transfer of funds not documented by lender
              • Loan application not completed correctly

Summary:

Validity of Nonprofit Not Documented by Lender

WR Starkey did not document that it ensured Genesis was a charitable organization.
Specifically, WR Starkey did not verify the validity of Genesis, the nonprofit that provided
downpayment assistance for the loan. FHA regulations 69 required WR Starkey to verify the
nonprofit on an Internal Revenue Service website for this purpose.

Gift Funds Transfer Not Documented by Lender

The FHA case binder did not contain the gift funds wire transfer documentation. FHA
requirements 70 state that the lender must document the transfer of the funds from the donor to the
borrower. WR Starkey did not document the transfer of the gift funds as required by FHA.

Loan Application Not Completed Correctly

The borrower filed bankruptcy in 2006. However, the loan application showed that the borrower
did not file bankruptcy. Also, the borrower owned a residence. WR Starkey personnel did not
follow up on the disposition or rental of the residence. The loan application contained a
certification signed by the underwriter stating that to the best of the lender’s knowledge, the
statements in the application were true and correct.




69
     Mortgagee Letter 2006-13
70
     HUD Handbook 4155.1, paragraph 5.B.5.b
                                                40
